WAIVER

SUPREME COURT OF THE UNITED STATES

No. 20-8089

Emem Ufot Udoh Minnesota Dep't of Human Services et al.
(Petitioner) Vv. (Respondent)

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court

Please check the appropriate box:
oO lam filing this waiver on behalf of all respondents.

© _Lonly represent some respondents. I am filing this waiver on behalf of the following respondent(s)

Respondents Independent School District No. 279, Joanne Wallen, Karen Wegerson, and Ann Mock

Please check the appropriate box:

© Iam a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)

© _ Lam not presently a member of the Bar of this Court, Should a response be requested, the response

will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Alin: Clerk’s Office, 1 First Street, NE, Washington, D.C. 20543)

Signature: I. iw

Date 6/9/21

(Type or print) Name John P. Edison

© mr. O Ms. O Mrs O Miss
Firm Rupp, Anderson, Squires & Waidspurger, P.A.
Address 333 South Seventh St., Suite 2800
City & State | Minneapolis, MN Zip 55402
Phone (612) 436-4300 Email john.edison@raswlaw.com

A copy of this form must be sent. to petitioner’s counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

Emem Udoh, Tonya Udoh, Frederic Argir and Ali Afsharjavan, Christiana Martenson, Paul Reuvers,
and John Marti
